IN

OF THE STATE OF OKLAHOMA

“URT<■?« appeals
STATE OF OKLAHOMA

JAN -4 2021

ROBERT ROLAND YERTON, JR.,

JOHN D. HADDEN
CLERK

Petitioner,

No. MA-2020-930

v.
STATE OF OKLAHOMA,
Respondent.

ORDER DENYING APPLICATION FOR
EXTRAORDINARY RELIEF
On December 18, 2020, Petitioner filed a pro se application for a
writ of mandamus alleging the District Court had failed to rule on an
application for post-conviction relief filed on December 7, 2020 in
Tulsa County District Court Case Nos. CF-2010-1707. To be entitled
to a writ of mandamus, Petitioner has the burden of establishing that
(1) he has a clear legal right to the relief sought; (2) the respondent's
refusal to perform a plain legal duty not involving the exercise of
discretion; and (3) the adequacy of mandamus and the inadequacy of
other relief.

Rule 10.6(B), Rules of the Oklahoma Court of Criminal

Appeals, Title 22, Ch.18, App. (2021).
The record Petitioner has submitted to this Court for review does
not establish the District Court has refused to perform a legal duty or

Additional material
from this filing is
available in the
Clerk's Office.

